       REVIEW OF THE GSA OCAO's
PROCUREMENT MANAGEMENT REVIEW PROCESS
    REPORT NUMBER A080121/O/A/F09012

           September 30, 2009
                       REVIEW OF THE GSA OCAO's
                PROCUREMENT MANAGEMENT REVIEW PROCESS
                    REPORT NUMBER A080121/O/A/F09012

                               TABLE OF CONTENTS

                                                                        Page

EXECUTIVE SUMMARY                                                        i
    Purpose                                                              i
     Background                                                          i
     Results in Brief                                                    i
     Recommendations                                                     ii
     Management Response                                                 ii
INTRODUCTION                                                             1
     Background                                                          1
     Objectives, Scope and Methodology                                   2
RESULTS OF AUDIT                                                         4
     Brief                                                               4
     Improvements have been Made in Contracting Officer Performance,
     but Opportunities Exist for Further Advancement                     4
             Extending Limited Resources                                 5
             Improvements to the Review Process                          9
     A Tool to Measure PMR Effectiveness Exists but could be Improved   12
             PMR Key Performance Measures Need to be Revised
             and Clarified                                              12
             Alignment of PMR Checklist Elements and Key Performance
             Measures Could be Improved                                 14
             Trend Analysis could be Improved by Supplementing the
             Outcome Analysis Tool                                      14
     Conclusion                                                         15
     Recommendations                                                    15
     Management Comments                                                16
     Internal Controls                                                  16
Appendices
     Acquisition Elements Reported in Department of Defense
     (DoD) and General Services Administration (GSA)
     Inspector General Reports                                A-1

     Management Comments                                      B-1

     Report Distribution                                      C-1
                       REVIEW OF THE GSA OCAO's
                PROCUREMENT MANAGEMENT REVIEW PROCESS
                    REPORT NUMBER A080121/O/A/F09012


                                EXECUTIVE SUMMARY

Purpose

The purpose of this review was to determine whether the Procurement Management
Reviews (PMRs) are effective in identifying and communicating compliance issues to
improve Contracting Officer performance in complying with federal acquisition laws and
regulations, and if not, to determine the cause(s). This review was also to determine if
the OCAO has a mechanism for measuring the effectiveness of PMRs.

Background

The General Services Administration (GSA) Office of Chief Acquisition Officer (OCAO)
is charged with strengthening the acquisition activities of GSA so that GSA can provide
customers with acquisition support while emphasizing compliance, ethics, and integrity
in contracting. In 2004, the OCAO created its PMR Division and initiated PMRs. The
PMR Division coordinates with agency professionals from various acquisition specialty
areas within GSA to conduct periodic peer reviews of GSA contracting activities and
make recommendations to management for improvement.

The PMR Division follows up on management action plans and compiles and analyzes
data from its peer reviews. The specifics surrounding these activities have evolved as
the PMR program has matured and attempted to meet the requirements posed by
changes in the acquisition environment.

As client agencies place reliance on GSA’s acquisition expertise to assist in achieving
their missions, it is imperative that GSA’s acquisition programs are operated efficiently,
effectively, and in compliance with applicable regulations. The PMR Program, if
conducted effectively, can assist in providing this assurance and further the benefit it
currently provides to acquisition personnel and management throughout GSA.

Subsequent to our review, on August 11, 2009, GSA Order ADM 5440.621realigned the
Office of the Chief Acquisition Officer and the Office of Governmentwide Policy into the
Office of Acquisition Policy.

Results in Brief

The OCAO’s PMR Program has contributed to the improvement of compliance with
federal acquisition laws and regulations and internal procurement policy. The PMR
Division continues to refine its processes to incorporate efficiencies as well as changes
in the acquisition environment. Our review found opportunities to strengthen the



                                             i
effectiveness of the PMR program by leveraging limited resources and implementing
further process improvements.



The PMR Division has developed a tool to assist in evaluating contracting activity
performance and refinements to it are ongoing. The continuing evolution of the PMR
process and the qualitative aspects of PMRs have complicated the development of this
tool, but the PMR Division has made improvements and these efforts continue. We
found opportunities to improve and supplement this tool, potentially improving its
reliability and enhancing its use as a performance measure and for trend analysis.

Recommendations

We recommend that the Chief Acquisition Officer:

   1. Implement program improvements including:
         a. utilizing a broad risk-based approach across contracting activities and
            modifying the contract sampling process to obtain a higher level of
            assurance
         b. enhancing communication and feedback to ensure wide dissemination of
            best practices
         c. pursuing focused reviews when appropriate
         d. making improved use of the Internal Control and Audit Division (BEI) Audit
            Tracking System (BATS) to track implementation of management action
            plans.

   2. Continue efforts to improve the Outcome Analysis Tool and refine its usage to
      enhance quantification and trend analysis of PMR results by:
         a. assessing measures currently tracked to ensure they capture of critical
            elements of acquisition
         b. incorporating refinements to the PMR process and checklists to promote
            standardization of data capture
         c. supplementing with other performance indicators or forms of evaluation as
            appropriate

   3. Continue current Office of Management and Budget (OMB) Circular A-123
      implementation efforts, integrating where possible with our prior
      recommendations to leverage limited PMR resources.

Management Response

Management generally agrees with the findings in this report and indicates that steps to
implement recommendations cited in the report are already underway. Management
comments are included in their entirety as Appendix B to this report.




                                           ii
                                          REVIEW OF THE GSA OCAO's
                                   PROCUREMENT MANAGEMENT REVIEW PROCESS
                                       REPORT NUMBER A080121/O/A/F09012


                                                               INTRODUCTION

Background

The Office of the Chief Acquisition Officer (OCAO) is charged with strengthening the
acquisition activities of the General Services Administration (GSA) so that GSA can
provide its customers with the acquisition support they need while emphasizing
compliance, ethics, and integrity in contracting. In 2004, the OCAO created its
Procurement Management Review (PMR) Division and initiated Procurement
Management Reviews (PMRs) as required by the “Get it Right” Program 1 . The PMR
Program mission includes providing:

       •      Assistance to improve operational efficiency and effectiveness in acquisition;
       •      Evaluation of the procurement process, achievement of GSA acquisition mission
              and goals;
       •      Assessment of compliance with statutory, regulatory, and internal policy on
              procurement; and,
       •      On-site management consulting service on procurement issues.

To achieve this mission, the PMR Division coordinates with acquisition, contracting, and
agency professionals from various acquisition specialty areas within GSA to conduct
periodic peer reviews of GSA contracting activities. Contract actions are sampled,
reviewed, and results are reported to management. Management is given an
opportunity to comment on the report and provide action plans for implementation of
recommendations. The PMR Division follows up on action plans and compiles and
analyzes data from its peer reviews. The specifics surrounding these activities have
evolved as the PMR program has matured and attempted to meet the requirements
posed by changes in the acquisition environment.

One such change resulted from a Memorandum of Agreement (MOA) between GSA
and the Department of Defense (DoD) entered into in December 2006. This MOA
contained 24 action items to address various concerns found during a joint DoD/GSA
Office of Inspector General (OIG) review of the GSA Client Support Centers (CSCs).
One of these action items required GSA to “use its PMRs to review and identify
deficiencies and areas of weakness as identified in DoD and GSA IG reports”. Refer to
Appendix A-1 for a listing of the acquisition elements of concern detailed within these
reports.

                                                            
1
  In 2004, GSA launched the “Get it Right” Program in order to help minimize improper acquisition practices.  One of the action 
items of the “Get It Right” Program was the establishment of the PMR program, for the purpose of reviewing all GSA 
contracting offices on a regular basis.


                                                                    1
More recently, in 2008 the Office of Management and Budget (OMB) issued OMB
Circular A-123, “Management’s Responsibility for Internal Control” that requires federal
agency managers to continuously monitor and improve the effectiveness of internal
controls associated with their programs. The Office of Federal Procurement Policy
(OFPP) provided further guidance on OMB Circular A-123 by issuing “Guidelines for
Assessing the Acquisition Function.” These guidelines are designed to assist federal
managers in improving the accountability and effectiveness of federal acquisition
programs and operations by establishing, assessing, correcting, and reporting on
internal control. In response to A-123 and the related OFPP guidance on its
implementation, the PMR Division conducted an extensive analysis of its peer review
process and is implementing some modifications to its activities to ensure the
components and issues related to acquisition assessment (cornerstones, elements, and
critical success factors identified by this guidance) are included and assessed in the
PMR process.

As client agencies place reliance on GSA’s acquisition expertise to assist in achieving
their missions, it is imperative that GSA’s acquisition programs are operated efficiently,
effectively, and in compliance with applicable regulations. The PMR Program, if
conducted effectively, can assist in providing this assurance and further the benefit it
currently provides to acquisition personnel and management throughout GSA.

Subsequent to our review, on August 11, 2009, GSA Order ADM 5440.621realigned the
Office of the Chief Acquisition Officer and the Office of Governmentwide Policy into the
Office of Acquisition Policy.

Objectives, Scope, and Methodology

Our objectives were to answer the following questions:

       •      To what extent are the Program Management Reviews (PMRs) effective in
              identifying and communicating compliance issues to improve Contracting Officer
              (CO) 2 performance in complying with federal acquisition laws and regulations? If
              improvements are not being made, what is the cause?
       •      Does the OCAO have a mechanism for measuring the effectiveness of PMRs
              over time?

We focused our review primarily on PMRs and reports completed in Fiscal Year (FY)
2008.

To accomplish these audit objectives, we:
   • Reviewed GSA policies and procedures, applicable Federal Acquisition
      Regulations, and related public laws.
                                                            
2
  The PMRs are intended to improve the performance of the acquisition workforce.  Among the positions that the 
GSA OCAO has defined as being included in the acquisition workforce are all GS Series 1102s, 1105s, and 1106s, all 
COs regardless of Series, and all GS 1170s performing acquisition related work.  For the purposes of this report, we will 
use terms “acquisition personnel” or CO(s) to refer to these positions. 


                                                                2
        •      Examined audit reports from GSA and the Government Accountability Office.
        •      Evaluated data from the Federal Procurement Data System-Next Generation
               (FPDS-NG).
        •      Reviewed and evaluated PMR reports and internal documentation - including
               checklists and the PMR Outcome Analysis Tool - and contract award data
               provided by the PMR office.
        •      Interviewed cognizant program officials within the PMR Division and OCAO.
        •      Interviewed acquisition personnel 3 from the regions reviewed in FY 2008 as well
               as from Central Office. These personnel were from the Federal Acquisition
               Service (FAS) and the Public Buildings Service (PBS).

The audit was performed during the period February 2008 through June 2009. This
review was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our observations
based on our audit objectives.




                                                            
3
     These interviews also included various levels of acquisition operational management.   


                                                                  3
                       REVIEW OF THE GSA OCAO's
                PROCUREMENT MANAGEMENT REVIEW PROCESS
                    REPORT NUMBER A080121/O/A/F09012


                                 RESULTS OF AUDIT

Brief

The OCAO’s PMR Program has contributed to the improvement of compliance with
federal acquisition laws and regulations by acquisition personnel at GSA. The extent of
this improvement is difficult to quantify as much of the PMR evaluation is qualitative in
nature, and the PMR Division continues to refine its evaluation process. Additionally, the
relatively recent nature of the PMR Program, and changes to it driven by requirements
such as those in OMB A-123, have limited the number of follow up reviews and
associated comparable data for trend analysis. Our review did find opportunities to
strengthen the effectiveness of the PMR program by leveraging limited resources and
implementing improvements to its processes.

The PMR Division has made strides in developing an evaluation instrument, the
“Outcome Analysis Tool”, to measure the effectiveness of its reviews over time. For an
instrument of this type to be effective, it must provide valid and reliable measures on
relevant indicators of performance. The PMR Division has faced challenges in
developing this tool to track the performance of individual contracting activities and
capture overall Agency progress on issues previously identified within GSA’s CSCs.
However, the PMR Division has made improvements to enhance data collection, and its
efforts to improve the Outcome Analysis Tool are ongoing. We found opportunities to
improve and supplement this tool, potentially improving its reliability and enhancing its
use as a performance measure and for trend analysis.

Improvements have been Made in Contracting Officer Performance, but
Opportunities Exist for Further Advancement

The PMR program has had a positive effect on GSA acquisition activities and continues
to address the objectives of the “Get it Right” Program as well as concerns outlined in
the December 2006 DoD/GSA MOA. Our review of PMR report recommendations,
associated management action plans and implementation activities, as well as our
interviews of acquisition personnel have led us to conclude that improvements have
been made in contracting officer performance. We recognize that the PMR program
continues to evolve, and as it does, opportunities exist to further the strides that the
PMR Division has already made in their mission to assist GSA acquisition centers with
improving their operational efficiency and effectiveness. These opportunities include
better leveraging of limited resources and making improvements to the review process
itself to further enhance PMR mission achievement.




                                            4
Extending Limited Resources

When the PMR program was first established, its program goals included performing a
peer review of every contracting activity on an annual basis. Due to resource
constraints, the PMR Division reduced the number of reviews, and the current goals
include conducting these peer reviews bi-annually. In Fiscal Year (FY) 2008, the PMR
Division conducted peer reviews on approximately 225 FAS and PBS contracts, which
represents a small percentage of the total number of contract actions for PBS and FAS.
While the PMRs are a valuable resource to GSA, and the PMR Division has recently
added resources, it does not have the capacity to review a representative sample of the
total number of contract actions.

The PMR Division may be able to better leverage available resources and provide
additional assistance to higher risk contracting activities by adopting a broader risk-
based approach when planning overall peer review schedules, contract action sampling,
and the type or depth of peer review. The PMR Division could then schedule a
contracting activity assessed at a higher risk for annual or more frequent peer reviews,
while an activity assessed as lower risk could be scheduled for reviews on a multi-year
cycle. A number of possible factors could be assessed as a part of this approach
including:

    •   Business volume
    •   Business cycles (i.e. periods of peak activity)
    •   Past performance in PMRs or OIG reviews
    •   The existence of effective internal review processes in activities

        Business Volume

The current goal of the PMR Division is to conduct peer reviews of contracting activities
bi-annually. There may be benefits to adjusting this biannual cycle due to the business
volume and associated risk of reviewed activities.

We performed an analysis of data within the FPDS–NG in order to evaluate the
business volume and trends in terms of the number of contract actions and the
corresponding dollar amounts in several regions. We focused our analysis on contract
data from regions that underwent a PMR in FY 2008. Those regions are identified in
the graphs that follow.

As demonstrated by Graph 1 on the following page, in both FY 2007 and FY 2008 there
was wide variation in the number of contract actions from region-to-region for FAS, and
this variation was fairly constant across fiscal years. The distribution of this activity
among the regions also remained fairly constant across fiscal years.




                                              5
    6
    7
The fairly constant data trends illustrated by these four graphs indicate potential benefits
in terms of both improved coverage of contracting activities by PMRs, and in better
overall use of PMR resources by adjusting the frequency of reviews by business volume
of activities rather than maintaining the current two year rotation with similar numbers of
contracts selected for review from every region. The PMR Division could further adjust
for business volume variations by increasing or decreasing the numbers of contract
actions that the PMR teams review at specific activities. Regardless, if the PMR
Division includes this type of broad-based business volume assessment across regions
as a part of their regular planning process, it may enable more effective use of
resources.

       Business cycles

As a part of its review process, the PMR team must determine the universe of contract
actions from which to select a sample for its peer review of a particular contracting
activity. To do this, the PMR team obtains a listing of contract data from a specific
period of time, usually a recent quarter of the fiscal year. From our review of FPDS-NG
data we found that, in addition to the differences in regional business volume discussed
above, levels of activity from quarter-to-quarter fluctuated greatly within each region.
For instance, the fourth quarter of the Fiscal Year had the greatest number of contract
actions for the FAS regional offices that underwent a PMR in FY 2008. In contrast, the
second quarter typically had the largest number of actions for the PBS activities that
were reviewed during this same timeframe.

The PMR division should select a universe for sampling that minimizes the risk of
inadvertently excluding an inordinate number of contract actions for potential review due
to an activity’s business cycle. Further, since there is additional risk during periods of
higher business activity due to the increased demands this workload places on
acquisition personnel, systems, etc., the PMR division should consider expanding
and/or adjusting the period from which they determine their sampling universe, so as to
better address these risks.

       Past performance in PMR reviews or OIG audits

When the PMR team completes its peer review of a contracting activity, it issues a
report to management that discusses strengths and any areas requiring improvement
that the team found; if necessary, the report also includes recommendations for
implementation. During subsequent reviews, the PMR team conducts follow-up steps to
assess whether any previously identified concerns still exist. This information from prior
reviews could also be used during PMR planning. Specifically, if a contracting activity
has demonstrated during prior PMRs that it had no areas (or a small number of isolated
minor instances) requiring improvement, the PMR Division could extend the period until
this activity’s next review was necessary or limit the scope of the review to select areas
of concern. Conversely, prior PMR reviews that detected systemic or pervasive
concerns may indicate the need for more frequent reviews.




                                             8
This same principle can be extended to include consideration of OIG audits during the
PMR planning process. The December 2006 DoD/GSA MOA already tasks the PMR
Program to review and identify deficiencies and areas of weakness in the subject OIG
CSC reports (Appendix A), and current GSA OIG internal audit reports are available on
the Agency’s website for the PMR Division to review. The concept of considering a
contracting activity’s past performance in either PMR reviews or OIG audits is congruent
with our discussions with FAS and PBS personnel, during which they indicated that the
frequency with which an activity undergoes a PMR should be influenced by whether or
not that activity is experiencing difficulties meeting their performance goals.

      Effective internal review processes

Our discussions with FAS and PBS acquisition personnel revealed that some
contracting activities conduct their own internal contract reviews. If these internal
contract reviews are conducted effectively, the PMR Division may be able to place
some degree of reliance upon their results. If so, these internal contract reviews may
provide a mechanism to leverage the resources of the PMR Program by permitting
extension of time intervals between PMR reviews of these activities and/or by permitting
reviews with a narrowed scope or targeted, in-depth assessments of specific areas.
The PMR Division should consider the existence, quality, and results of these internal
reviews when assessing risk during their planning process.

      Other considerations

There are other factors the PMR Division may consider incorporating into a broad, risk-
based approach when planning frequency of site visits and/or the depth of their reviews.
These include significant workload or personnel changes in or between contracting
activities, transfers of contracts or Multiple Award Schedules with associated contracts,
and changes in technology used by acquisition personnel or in the marketplace itself.

Improvements to the Review Process

The PMR process has evolved since its inception and will continue to evolve as
efficiencies in processes are realized. During our review we noted additional practices
that the PMR Division could implement to improve efficiency and effectiveness of the
current PMR Program. These include modifying the contract sampling process to
obtain a higher level of assurance, enhancing communication and feedback at both the
individual contracting activity review level and Agency levels, pursuing more focused
reviews when appropriate, and making improved use of a current system to ensure
implementation of management action plans.

      PMR Division should re-evaluate method for obtaining data universe

When determining the universe of contract actions from which to select a sample for its
peer review, the PMR team relies on data provided by the Assisted Acquisition Services
(AAS) and/or PBS along with data from FSS-19. At the outset of the PMR Program, the



                                            9
PMR teams obtained the universe of contracts actions for sampling solely from FPDS-
NG and/or FSS-19. However, the PMR Division found that these systems were not
consistently updated with contract information in a timely manner, and that data entered
into the system was not always reliable. Therefore, current guidance in the PMR
Manual instructs the lead of the PMR team to email a request to the regional acquisition
executive for a list/report from the most recent fiscal year quarter of all awards made
above the simplified acquisition threshold (over $100,000), for FAS and PBS.

We have two concerns with this methodology. One is the risk to GSA if contracting
activities are not properly using the appropriate agency systems to manage and roll up
their data. The second is that the reviewed activity could submit a list of contract
actions that is not complete, resulting in the possibility that high-risk contract actions
might not be selected for review. The list submitted by a contracting activity could be
incomplete due to a variety of factors including simple oversight or delayed contract
data entry into the system.

These risks could be reduced by requesting access to the original data source from
which the point-of-contact obtained the contract action list. The original data source
could be confirmed as appropriate and then utilized to confirm that the list, or universe,
of contract actions submitted for sample selection was complete before the PMR team’s
site visit. Additionally, prior to PMR team’s visit to the contracting activity during the
subsequent review cycle, the PMR team could reproduce the contract award list from its
previous review to verify that all major contract awards had been included and were not
overlooked for sample consideration due to timeliness of data entry or other issue.

       Communication and feedback

There are opportunities to expand communication and feedback at all levels within the
PMR Program to enhance the sharing of best practices and/or issues of concern. PMR
communication we noted at the organizational level during the period of our review was
primarily focused between the region under review and the PMR team, with very little
higher level communication cross-cutting across contracting activities or regions. While
our review noted frequent examples of solid communication, we also found
opportunities for improvement at the level of the acquisition personnel responsible for
contract files.

A focused effort should be made on broadening communication related to best practice
sharing so that contracting activities can learn, adopt, and benefit from best practices
developed by other areas. Additionally, areas of concern could be rolled up and
summarized periodically for dissemination so that the benefit of this knowledge is
realized by all activities without attribution. The PMR Division is in a prime position to
facilitate this type of communication and help create a culture for sharing knowledge
and improving acquisition practices.

Informal best practice sharing has been underway since the PMR program inception.
Volunteers provided by PBS and FAS from various regions and acquisition centers to



                                            10
serve on the PMR teams indicated that their experiences while conducting peer reviews
of other areas have led them to bring best practices back to their work places. This
informal methodology speaks to the benefit of continuing to develop and expand the
pool of volunteers that the PMR Division draws from to build its peer review teams.

The PMR Guide states that the PMR team will be “Conducting open forum during the
week of review with all 1102s to discuss current issues in acquisition, trends, upcoming
changes etc.” Our interviews with acquisition personnel frequently indicated solid
communication, such as at the conclusion of some peer reviews when the results were
summarized and provided to all the acquisition personnel at the contracting activity.
However, during several of our interviews, acquisition personnel responsible for specific
contract files that had been reviewed stated that communication between them and the
PMR team had been inconsistent or did not take place. In some of these cases, a
designated point-of-contact for the reviewed activity answered questions that the PMR
team had concerning contract files, only involving the responsible acquisition personnel
if they could not answer specific questions. In a few cases the acquisition personnel
responsible for the contract file under review informed us that they had no knowledge
that a PMR even took place.

Although some acquisition personnel are benefitting from the PMR team’s direct
interaction and instruction on existing issues or concerns, others may not be getting
needed guidance. The PMR Division should emphasize to their review teams, as well
as to the contracting activities under review, the importance and benefits of direct
communication between the PMR team and the activity’s acquisition personnel
responsible for the files under review. In this manner those personnel will have the
opportunity to determine specific areas where they are exhibiting best practices or
where improvement is needed.

      Narrowed scope reviews

The PMR Division’s reviews have tended to be broad and all-encompassing in nature
with more of a focus on contract file documentation than on in-depth of analyses of
particular acquisition issues. This tendency appears to have resulted from limited
resources and early program efforts focused on contract file documentation. As the
PMR program continues to evolve and mature, the PMR Division is attempting to bring
a greater depth of analysis to the peer review process. Additionally, current PMR
Program efforts to implement OMB A-123 with related OFPP guidance should assist in
establishing the scope of PMRs.

Much of the broad nature of the PMR scope was the result of early drivers of the
program, such as the “Get it Right” Program and the December 2006 DoD/GSA MOA.
However, the PMR Division should consider performing reviews - or components within
reviews - with a more focused or limited scope, specifically in areas identified where the
contracting activities need the most assistance. As discussed above, results and
findings from past reviews could be utilized to determine risk or problem areas for these
more focused reviews. Additionally, conducting some PMRs with a more focused scope



                                           11
may permit the PMR Division to dedicate fewer personnel than traditionally required for
PMR reviews, potentially freeing resources for other PMR efforts.

In those regions that have digitized contract file documents, preliminary contract review
could be performed off-site allowing for more on-site focus on areas of concern
identified through this preliminary review. PMR staff indicated that in FY 2009, after the
period of our review, they began to review electronic copies of contract file documents
in the IT-Solutions Shop (ITSS) system prior to site visits. We encourage the increased
use of this capability. However, since all regions do not recognize ITSS as the official
contract file, PMR teams who employ this technique will need to perform on-site testing
to confirm documents within ITSS match those in the official contract file.

      A higher level of assurance of action item implementation is possible via
improved use of the BEI Audit Tracking System

The BEI Audit Tracking System (BATS) is an application that supports the operations of
GSA's Internal Control and Audit Division (BEI). The PMR Division currently uses this
system in support of its Program and inputs documents from its reviews into it. Among
the items we noted in BATS were PMR reports linked to associated recommendations
and management action items uniquely coded by the PMR Division to enhance tracking.
However, our review of these documents revealed that the documents loaded into BATs
do not always indicate whether the action items have been adequately addressed and
closed out. Including documentation confirming close out would better utilize BATS and
enhance assurance that the benefits intended to be realized from PMR
recommendations are achieved.

A Tool to Measure PMR Effectiveness Exists but could be Improved

The PMR Division utilizes an assessment instrument called the “Outcome Analysis
Tool” to assist in evaluating contracting activity performance and the effectiveness of
PMRs. For an assessment instrument to be effective, it must provide valid and reliable
measures on relevant indicators of performance. The ongoing evolution of the PMR
process and the qualitative aspects of PMRs have complicated the selection,
quantification, and evaluation of performance measures. We identified opportunities to
improve and supplement this tool to enhance its use as a performance measure and for
trend analysis, and we noted that the PMR Division’s efforts to incorporate requirements
of OMB A-123 have addressed, or begun to address, many of these issues.

PMR Key Performance Measures need to be revised and clarified

In FY 2006, the PMR Division identified six key performance measures (PM) and began
tracking them through the use of the Outcome Analysis Tool constructed using
Microsoft Excel. These performance measures are:

    •   Percentage of contract files that contain appropriate documentation (PM # 1)
    •   Percentage of contract files with completed acquisition plans (PM # 2)


                                            12
    13
view of GSA’s acquisition performance. We commend the PMR Division’s initiatives in
this area and believe it appropriate to ensure that the measures selected and utilized
provide value when tracked over time and that essential acquisition elements
appropriately represented in these measures.

Alignment of PMR checklist elements and key performance measures could be
improved

Data required for input to the Outcome Analysis Tool is captured during the contract
review process by use of checklists by the PMR team. Three checklists were
developed by PMR Division for use during contract reviews:
    • Federal Acquisition Service (FAS) Assisted Acquisition Service Review
      Worksheet
    • Federal Acquisition Service (FAS) Multiple Award Schedule Contract Review
      Checklist
    • Public Buildings Service (PBS) Contract Review Checklist

Each of these checklists includes, among other elements, the relevant acquisition
elements from the December 2006 DoD/GSA MOA. In addition to these elements, all
three checklists have a summary section that allows the reviewer to document, through
a Yes/No/Non-applicable (N/A) response, whether the contract file has succeeded or
failed to meet each of the six key performance measures discussed above. We noted,
however, that the checklists are not structured to indicate which acquisition elements
relate to each key performance measure. Inconsistent rollup of checklist elements may,
in turn, affect the quality of the data that feeds the Outcome Analysis Tool making an
accurate assessment or trend analysis of contracting activity performance difficult.

We have noted that using structured checklists with hierarchical, topical grouping of
elements promotes consistency in evaluation during our peer reviews of other OIGs.
Absent a similar structure for PMR checklists, we are concerned that essential elements
may not be consistently included in the key performance measure pass/fail
determination. As the PMR Division revamps performance measures in use,
consideration should also be given to aligning review checklist elements to these
performance measures to promote consistency of assessment and quality of data.

Trend analysis could be improved by supplementing the Outcome Analysis Tool

As previously discussed, PMR Division began using the Outcome Analysis Tool to track
performance measures in FY 2006. As the PMR Division completed their reviews for
FY 2007 and FY 2008, the accumulated performance results were also incorporated
into the tool with the goal of performing trend analysis. In addition to the issues related
to data inconsistencies discussed earlier in this report, the PMR Division has noted that
the performance measure figures for trend analysis in the tool are based upon the
premise that things remained equal each fiscal year and that the PMR Division reviewed
the same locations every year.




                                            14
Because the PMR Division has adjusted their schedule to reviewing activities on a
biannual basis, annual performance measure data is not reflective of improvements or
declines in performance from the same contracting activities as it was at the inception of
the PMR program. In addition, the sample sizes and mixes of contracts reviewed from
fiscal year to fiscal year may change depending on the region reviewed and resources
available to the PMR team. As the performance measure results for all regions are
aggregated into one overall GSA score per performance measure, the rolled-up results
can result in an inaccurate representation of GSA’s acquisition strengths and
weaknesses.

To obtain a more accurate picture of performance trends, the PMR Division should
consider supplemental methods to support trend analysis. As part of the current PMR
process, the PMR Division revisits areas of concern identified during prior reviews.
Each report contains a condensed outline, by review year, of prior observations and
whether those observations are still occurring. The PMR Division could quantify these
observations, assess trends, and utilize this information as a supplement to the
Outcome Analysis Tool. Also, as it relates directly to a center or region, the conclusions
derived from tracking these issues would not be affected if the given region is not visited
annually or if the number of contracts in the sample size varies by review.

Conclusion

The OCAO’s PMR Program has contributed to acquisition efficiency and effectiveness,
as well as to the improvement of compliance with federal acquisition laws and
regulations and internal procurement policy. The PMR Division continues to refine its
evaluation process to incorporate efficiencies as well as changes driven by
requirements such as those in OMB A-123. Our review found opportunities to
strengthen the effectiveness of the PMR program by leveraging limited resources and
implementing further improvements to its processes.

The PMR Division has developed the Outcome Analysis Tool to assist in evaluating
contracting activity performance and trend analysis over time. The ongoing evolution of
the PMR process and the qualitative aspects of PMRs have complicated the
development of this tool, but the PMR Division has made improvements and its efforts
to improve the Outcome Analysis Tool are ongoing. We found opportunities to improve
and supplement this tool, potentially improving its reliability and enhancing its use as a
performance measure and for trend analysis.

We noted that the PMR Division’s efforts to satisfy the requirements of OMB A-123 and
associated OFPP guidance have addressed, or begun to address, a number of the
issues noted in this report.

Recommendations

We recommend that the Chief Acquisition Officer:




                                            15
    1. Implement program improvements including:
          a. utilizing a broad risk-based approach across contracting activities and
             modifying the contract sampling process to obtain a higher level of
             assurance
          b. enhancing communication and feedback to ensure wide dissemination of
             best practices
          c. pursuing focused reviews when appropriate
          d. making improved use of the Internal Control and Audit Division (BEI) Audit
             Tracking System (BATS) to track implementation of management action
             plans.

    2. Continue efforts to improve the Outcome Analysis Tool and refine its usage to
       enhance quantification and trend analysis of PMR results by:
          a. assessing measures currently tracked to ensure they capture of critical
             elements of acquisition
          b. incorporating refinements to the PMR process and checklists to promote
             standardization of data capture
          c. supplementing with other performance indicators or forms of evaluation as
             appropriate

    3. Continue current Office of Management and Budget (OMB) Circular A-123
       implementation efforts, integrating where possible with our prior
       recommendations to leverage limited PMR resources

Management Comments

Management generally agrees with the findings in this report and indicates that steps to
implement recommendations cited in the report are already underway. Management
comments are included in their entirety as Appendix B to this report.

Internal Controls

We performed a limited assessment of controls relevant to the PMR process and
provided recommendations to strengthen and improve the current practices as
discussed in the Results of Review and Recommendations sections.




                                           16
Appendices
                                          REVIEW OF THE GSA OCAO’S
                                   PROCUREMENT MANAGEMENT REVIEW PROCESS
                                       REPORT NUMBER A080121/O/A/F09012

                                                               APPENDIX - A

                     Acquisition Elements Reported in Department of Defense (DoD)
                  and General Services Administration (GSA) Inspector General Reports

The General Services Administration (GSA) and the Department of Defense (DoD), in
December 2006, developed a Memorandum of Agreement (MOA) that identifies the
roles and responsibilities of “each respective agency in terms of providing services or in
using the services provided.” The MOA included a plan with action items that outlined
the agencies’ respective roles in the agreement. One of the action items in the plan
was for GSA to “use its PMRs to review and identify deficiencies and areas of weakness
as identified in DoD and GSA IG reports”. We reviewed several DoD and GSA reports 4
that identified those areas of weakness. The problems presented in the reports
included the following fourteen elements of concern:

       •      Section 803 Compliance
       •      Legal Review required for procurements exceeding $5 million
       •      Interagency Agreements
       •      Best Value Determination
       •      Determinations and Findings, and Ceiling Price, for Time & Materials Contracts
       •      Request for Discounts for Purchases Above Maximum Order Threshold
       •      Proposal Evaluations
       •      Acquisition Plans
       •      Scope of Work
       •      Quality Assurance Surveillance Plan
       •      Evaluation of Other Direct Costs
       •      Proper Use of Funds
       •      Anti-Deficiency Act (ADA) and
       •      Modifications to Existing Orders




                                                            
4
 COMPENDIUM OF AUDITS OF FEDERAL TECHNOLOGY SERVICE CLIENT SUPPORT CENTER CONTROLS (Report) Dated:
September 29, 2006
COMPENDIUM OF AUDITS OF THE FEDERAL TECHNOLOGY SERVICE REGIONAL CLIENT SUPPORT CENTERS (Report)
Dated: DECEMBER 14, 2004
AUDIT OF FEDERAL TECHNOLOGY SERVICE’S CLIENT SUPPORT CENTERS REPORT NUMBER A020144/T/5/Z04002 Dated:
JANUARY 8, 2004
Department of Defense Inspector General Report: Potential Antideficiency Act Violations on DoD Purchases Made Through Non-
DoD Agencies Dated: January 2, 2007
Department of Defense Inspector General Report: FY 2005 DoD Purchases Made Through the General Services Administration
(D-2007-007) Dated: October 30, 2006  




                                                                   A‐1
 




    B‐1 
                                                ‐2‐ 



                Review of and Comments on the Office of Acquisition Policy
                     Center for Program Management Review Process
                               Draft Report Number A080121
                          Summary Response to the Draft Report


The Center for Program Management Review (Center) welcomes the recommendations made
by the Office of Inspector General (OIG) – Acquisition Programs Audit Office (JA-A). The
Center will continue its transformation efforts and build on the progress noted in your draft
report. As stated in the report section “Objectives, Scope, and Methodology,” the OIG’s review
primarily focused on the reviews and reports completed in Fiscal Year (FY) 2008. This
document identifies many of the changes the Center has made since FY 2008, as well as
addressing OIG recommendations.

1. OIG Recommendations and Center Responses:

Implement program improvements including:

    a) Utilizing a broad risk-based approach across contracting activities and modifying the
        contract sampling process to obtain a higher level of assurance
    b) Enhancing communication and feedback to ensure wide dissemination of best practices
    c) Pursuing focused reviews when appropriate
    d) Making improved use of the Internal Control and Audit Division (BEI) Audit Tracking
        System (BATS) to track implementation of management action plans.

Center Response to Item a:

The Center concurs with this recommendation. In FY 2009, the Center instituted a limited risk-
based approach to select Federal Acquisition Service (FAS) contract actions for review.

The following criteria were used as the bases for identifying contract action sampling:

    •   Results of past reviews
    •   Areas identified in the Memorandum of Agreement (MOA) between GSA and the
        Department of Defense (DOD), dated December 2006
    •   OIG, DOD, and Government Accountability Office (GAO) audit reports
    •   Information based on interviews with acquisition/program management personnel to
        determine key acquisition areas considered high risks


The Center increased the data universe for contract reviews starting from the beginning of the
previous fiscal year up to the date of notification of review. In addition, the Center has worked
closely with the Federal Acquisition Service (FAS) to gain access to all applicable acquisition
systems to select the data universe.

                                                  
 



                                                B‐2 
                                              ‐3‐ 


In FY 2010, The Center will expand this risk-based approach to the Public Buildings Service
(PBS) and Multiple Award Schedule contract actions.

Center Response to Item b:

The Center concurs with this recommendation and has been proactive in improving its
communication and feedback to the acquisition community.

In response to Office of Federal Procurement Policy (OFPP) Guidance, Conducting Acquisition
Assessments under OMB Circular A-123 (May 21, 2008), GSA modified its Senior Assessment
Team (SAT) Charter to include representation from GSA’s Chief Acquisition Officer (CAO) and
FAS and PBS Senior Acquisition Leadership. This change was significant as it ensured that
entity level acquisition assessments and PMR results would be communicated to GSA Senior
Leadership throughout the Agency.

The FY 2009 A-123 report was released to the SAT on July 28, 2009. By reporting to the SAT,
the Center provided high level visibility of the entity level acquisition assessments and the
results of the FY 2009 Procurement Management Review (PMR) cycle. Reporting to the SAT
ensures the widest possible dissemination of both reports using a top-down approach. The
Center will continue this approach for future reporting requirements.

Center Response to Item c:

In FY 2009, the Center began performing “focused” reviews based on relevant DOD and GAO
audit reports on GSA acquisition practices, as well as requests from GSA Senior Leadership
(FAS, PBS, and Acquisition Policy). The Center will continue performing “focused” reviews in
addition to PMR’s based on the following criteria:

    •   Requests from Senior Leadership
    •   Results of past reviews (PMR, OIG and GAO)
    •   GAO Studies and Legal Opinions on Federal Contracting (e.g., high risk acquisition
        topics)
    •   Implementation of new or amended acquisition laws, regulations, policies, etc.
    •   Complexity of acquisition process and/or programs
    •   New technology or information systems (increase electronic reviews)
    •   Volume of Transactions (number, dollars)

Center Response to Item d:

The Center will continue improving use of the Internal Control and Audit Division (BEI) Audit
Tracking System (BATS) to track implementation and completion of management action plans.




                                              B‐3 
                                                ‐4‐ 


2. OIG Recommendation and Center Response:

Continue efforts to improve the Outcome Analysis Tool and refine its usage to enhance
quantification and trend analysis of PMR results by:

   a) assessing measures currently tracked to ensure they capture critical elements of
      acquisition
   b) incorporating refinements to the PMR process and checklists to promote standardization
      of data capture
   c) supplementing with other performance indicators or forms of evaluation as appropriate

Center Response to Recommendation Number 2:

The Center requested, in its FY 2011 budget, funding to build a sustainable analysis tool to
more effectively and efficiently capture, monitor, and manage critical elements of the acquisition
process and key risks areas identified during PMR’s. The analysis tool will provide the flexibility
necessary to produce a myriad of trend and comparative analysis reports. In addition, the tool
will provide the Center with a more efficient process for promoting standardization of data
captured, increasing reliability of compiled data, and reducing redundancy. Until implementation
of the requested analysis tool, the Center will continue the arduous process of capturing critical
acquisition data manually.

3. OIG Recommendation and Center Response:

Continue current Office of Management and Budget (OMB) Circular A-123 implementation
efforts, integrating where possible with our prior recommendations to leverage limited PMR
resources.

Center Response to Recommendation Number 3:

The Center for Procurement Management Review is excited to build on the successes achieved
during our first year of A-123 implementation. In FY 2010, we will continue to phase in risk
based approaches to increase the numbers of actions reviewed, target specific issues and
maximize resources.




                                               B‐4 
                        REVIEW OF THE GSA OCAO’S
                 PROCUREMENT MANAGEMENT REVIEW PROCESS
                     REPORT NUMBER A080121/O/A/F09012


                                      APPENDIX C

                                   Report Distribution

                                                                   Copies

Associate Administrator, Office of Governmentwide Policy and
Chief Acquisition Officer (M)                                        3

Internal Control and Audit Division (BEI)                            1

Assistant Inspector General for Auditing (JA & JAO)                  2

Assistant Inspector General for Investigations (JI)                  1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1




                                            C‐1 
